technology; procurement; and safety and security. Producing risk ratings for each operational
category allows the Department to focus its oversight efforts on the riskiest areas in a bureau
instead of an entire bureau. For example, a program such as the human capital area in the
Division of Forestry, Wildland Fire Management in the Bureau of Indian Affairs may be given a
high risk rating. In such a case, the Department could increase its monitoring of human capital
in that one Division instead of the entire Bureau. Outsourcing the development of the risk rating
instrument also allowed for a more objective view of the Department’s risk areas and help to
ensure it was unbiased toward the various constituencies within the Department.

        We have, however, identified an area for improvement to enhance the instrument’s
effectiveness. The reviewer can answer each question on a sliding scale from “Strongly Agree,”
to “Strongly Disagree.” These answers reduce the objectivity of the instrument, leaving the
answers (and ultimately the risk rating) to the reviewer’s judgment and subjectivity, thereby
diminishing the reliability of the results. Examples of questions with more data-drive answers
include:

              How many employees are involved in the process or programs?
              What is the employee turnover percentage for this office or program?
              What is the average number of years worked at the Department for all persons in
               the office or program?
              What is the average number of internal control reviews (performed internally,
               and/or by the Government Accountability Office and OIG) per office or program?
              What is the average number of findings (issued by KPMG, GAO, OIG) compared
               to total dollars per program?
              What are the employee satisfaction rates?

        Incorporating more fact-based questions into the risk assessment would force more
objective responses, thereby reducing the chances for manipulation of the data and outcome.

       We also note the importance of how the instruments are completed and by whom. There
is room to make errors in completing the instrument and to manipulate the outcome in the
instrument, even with more fact-based questions. The program risk assessments should therefore
be completed by a staff expert and reviewed by a knowledgeable manager. A simple review
could also be performed by a third party. Accurately completing the questionnaire and verifying
information could lessen the error and manipulation of the results.

        Additionally, particularly for Recovery Act purposes, it is important to understand the
risk across the Bureaus and in the Department. A team or individual should be designated to
review, comment, and report on established risk across the Department to the Recovery Act
Coordinator. Such reviews and reports can be used to compare the progress of each Bureau and
hold them accountable for performance under the Act. The team should be familiar with the risk
assessment instruments that are utilized to establish risk level, but should be independent from
the use of the risk instrument and the assignments of risk ratings.

       Finally, we note that the Department can use the instrument not only for Recovery Act
Oversight, but also other programs and activities for which risk management is relevant.

                                                                                                2
       We do not require an official response to this memorandum. Please feel free to contact
me at (202) 531-6231 or robert_knox@doioig.gov if you have any questions.

cc:   Pamela K. Haze, Acting Assistant Secretary – Policy, Management, and Budget




                                                                                                3
